               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




      Inbound International Parcel Mail

                       Audit Report




                                          November 23, 2011

Report Number MS-AR-12-001
                                                                      November 23, 2011

                                                      Inbound International Parcel Mail

                                                          Report Number MS-AR-12-001




IMPACT ON:
U.S. Postal Service international parcel       into the Global Business System (GBS)
revenue and operations.                        and processed for billing, develop
                                               system-generated management reports
WHY THE OIG DID THE AUDIT:                     to ensure receipts are recorded and
Our objective was to determine whether         missing dispatch records are identified
the Postal Service identified, recorded,       in the GBS, and create and process
and billed foreign posts for receipt of        records for dispatches identified during
inbound international parcel mail.             the audit that have not expired to collect
                                               revenue due from the appropriate
WHAT THE OIG FOUND:                            foreign postal administrations. We also
The Postal Service did not always              recommended the Postal Service
identify, record, and bill foreign posts for   assess the need for inbound
inbound international parcel mail. As a        international mail scanning and
result, the Postal Service did not collect     recording capabilities at the New Jersey
$10.9 million in revenue for inbound           Bulk Mail Center.
international parcel mail received and
delivered in the U.S. between                  WHAT MANAGEMENT SAID:
calendar years 2008 and 2010. While            Management agreed with our findings
the Postal Service significantly improved      and recommendations and stated that
the completeness of its billing records        they recognized past difficulties with the
after the Foreign Post Settlement              capture and processing of international
System replaced the International              inbound parcels. Management did not
Accounting Branch Settlement System            agree with the monetary impact reported
in December 2009, improvements are             and provided subsequent information for
needed over internal controls for              our consideration.
identifying, recording, and billing
inbound international mail. We identified      AUDITORS’ COMMENTS:
an additional $44.7 million of revenue at      The U.S. Postal Service Office of
risk due to inadequate procedures for          Inspector General considers
recording receipt of inbound                   management’s comments responsive
international mail. See Appendix B for         and corrective actions should resolve
monetary and other impact.                     the issues identified in the report. We
                                               reviewed management’s subsequent
WHAT THE OIG RECOMMENDED:                      analyses and agreed with a partial
We recommended the Postal Service              reduction in monetary impact.
reissue procedures to ensure receipt of
inbound international mail is recorded         Link to review the entire report
November 23, 2011

MEMORANDUM FOR:            GISELLE E. VALERA
                           VICE PRESIDENT AND
                           MANAGING DIRECTOR, GLOBAL BUSINESS

                           TIMOTHY F. O’REILLY
                           VICE PRESIDENT, CONTROLLER

                               E-Signed by Darrell E. Benjamin, Jr
                                 VERIFY authenticity with e-Sign

FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue & Systems

SUBJECT:                   Audit Report – Inbound International Parcel Mail
                           (Report Number MS-AR-12-001)

This report presents the results of our audit of the U.S. Postal Service’s recording and
processing of billing data for inbound international parcel mail (Project Number
11RG008MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet Sorensen, director, Sales
and Service, or me at 703-248-2100.

Attachments

cc: Richard G. Loutsch
    Corporate Audit and Response Management
Inbound International Parcel Mail                                                                                      MS-AR-12-001



                                                 TABLE OF CONTENTS



Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 2

Inbound International Mail Revenue Protection ................................................................. 2

Missing Dispatch Records Were Not Identified and Billed................................................. 3

Dispatch Receipts Were Not Processed for Billing ............................................................ 4

Recommendations .............................................................................................................. 5

Management’s Comments .................................................................................................. 6

Evaluation of Management’s Comments ............................................................................ 6

Appendix A: Additional Information..................................................................................... 8

   Background ...................................................................................................................... 8

   Objective, Scope, and Methodology ............................................................................... 9

   Prior Audit Coverage ..................................................................................................... 10

Appendix B: Monetary and Other Impacts ....................................................................... 12

Appendix C: Management’s Comments ........................................................................... 13
Inbound International Parcel Mail                                                                     MS-AR-12-001




Introduction

This report presents the results of our audit of the U.S. Postal Service’s recording,
receipt, and billing data for inbound international parcel mail (Project Number
11RG008MS000). Our audit objective was to determine whether the Postal Service
identified, recorded, and billed foreign posts for receipt of inbound international parcel
mail between calendar years (CY) 2008 and 2010. This is a self-initiated audit and
addresses financial risk. See Appendix A for additional information about this audit.

Inbound international mail originates in the post office of a country outside the U.S. and
is destined for delivery within the U.S. Each country’s foreign postal administration
(FPA) handles the inbound and outbound international mail for that country. The U.S.
Postal Service bills FPAs, which collect the postage from the sender to deliver mail to
the final destination point in the U.S.

Inbound international mail arriving at the U.S. Postal Service undergoes the following
process for identification, recording, and billing:

        The Postal Service receives inbound international mail at international service
         centers 1 (ISC) and International Exchange Offices (IEO), which distribute and
         dispatch international mail from foreign countries.

        Postal Service employees at the international inbound receiving unit – either an
         ISC or IEO – scan or manually enter Universal Postal Union 2 barcode 3 data from
         mailpieces or containers into the Postal Service’s electronic Global Business
         System (GBS).

        GBS automatically validates inbound dispatch data, which consists of verifying
         the completeness and validity of the dispatch records and matching records
         transmitted in advance by foreign posts to records of the parcels scanned or
         manually entered when received at the units.

        Dispatches that GBS validates are then processed to the Foreign Post
         Settlement System for billing.

        Dispatches that GBS is unable to automatically validate are manually reconciled
         and amended by the International Air Mail Records Unit clerks.

        After resolving all records that fail system validations, International Air Mail
         Records Unit clerks sort dispatch records so they can identify missing records

1
  There are currently five ISCs: Chicago, Los Angeles, Miami, New York, and San Francisco.
2
  The Universal Postal Union is a specialized agency of the United Nations and a forum for postal stakeholders
regarding policies, products, and services worldwide.
3
  The 29-character barcode captures the characteristics of a receptacle which includes the origin country code and
location, destination country code and location, mail category and class/subclass, year, dispatch number and serial
number, highest number receptacle indicator, registered/insured indicator, and the receptacle weight.
                                                          1
Inbound International Parcel Mail                                                                       MS-AR-12-001



         based on breaks in sequentially numbered international mail records. The
         Universal Postal Union mandates postal administrations to number international
         mail dispatches sequentially. Therefore, a break in a sequentially numbered
         dispatch series could indicate a missing dispatch.

        Once any missing records are identified, Postal Service employees are required
         to immediately create item and weight estimates and send a verification note to
         the originating FPA so the Postal Service can collect the appropriate fee.

In some instances, foreign posts do not provide advance electronic notification of
dispatches. This makes the receiving units’ responsibility to scan or manually enter the
dispatch data even more critical to ensure that foreign posts are billed for mail delivery
within the U.S. In CY 2010 the Postal Service accepted 97,293 inbound international
parcel dispatches, generating revenue totaling $49.6 million.

Conclusion

The Postal Service did not always identify, record, and bill foreign posts for inbound
international parcel mail. As a result, the Postal Service did not collect $10.9 million in
revenue for inbound international parcel mail received and delivered in the U.S.
between CYs 2008 and 2010. 4 While the Postal Service significantly improved the
completeness of its billing records in 2010 after the Foreign Post Settlement
(FPS)System replaced the International Accounting Branch Settlement System in
December 2009, improvements are needed over internal controls designed to identify,
record, and bill for inbound international mail. We identified an additional $44.7 million in
revenue at risk due to inadequate procedures for recording receipt of inbound
international mail.

See Appendix B for monetary and other impacts.

Inbound International Mail Revenue Protection

Postal Service processes for identifying, recording, and billing parcel revenue due from
foreign posts for inbound international parcels need improvement to minimize and
mitigate revenue leakage. Specifically, we noted that dispatch receipts were not always
recorded or processed for billing and missing dispatch records were not always
identified.

Dispatch Receipts Not Always Recorded

Receiving unit clerks at the ISCs and IEOs did not always scan or manually record
receipt of inbound parcel mail. Postal Service policy requires employees to scan or
manually enter the 29-character Universal Postal Union barcode into GBS to validate,
reconcile, and process dispatch records for billing.

4
  We did not include fiscal year (FY) 2011 data to allow time for the completion of Postal Service validation and
reconciliation.


                                                           2
Inbound International Parcel Mail                                              MS-AR-12-001




   Advance Electronic Notification: Postal Service employees did not enter 21,360 of
    the 168,712 dispatches (12.7 percent) containing inbound parcel mail into GBS
    between CYs 2008 and 2010. A significant portion of the unrecorded parcels
    (93 percent) were processed at the New Jersey Bulk Mail Center (BMC). This
    occurred because the New Jersey site is not equipped to scan inbound international
    mail and does not have a formal process to record receipts into GBS. As a result,
    the Postal Service could not validate the accuracy of dispatch data that foreign posts
    provided in advance, which resulted in $20.4 million of revenue at risk for CYs 2008
    through 2010. See Appendix B for other impacts.

   No Advance Electronic Notification: Between CYs 2008 and 2010, foreign posts
    did not provide advance electronic notification of dispatches totaling $24.3 million.
    When foreign posts do not provide advance electronic notification, scanning of
    inbound mail at the receiving units is even more critical to ensure foreign posts are
    billed for mail dispatched to the U.S. We consider the $24.3 million revenue at risk.
    See Appendix B for other impact.

       o Our audit identified 6,805 advance notifications of mail consigned to carriers
         that did not have corresponding advance electronic notification of the dispatch
         and were not recorded (scanned or manually entered) as received in GBS.
         Foreign Postal Administrations provide advance electronic information to
         receiving postal administrations that contain information about consignments
         of mail prepared and provided to carriers for delivery to the receiving Postal
         Administration. This electronic data includes dispatch, container, and
         receptacle information and is recorded in the Global Business System. Our
         discussions with Postal Service officials and review of the dispatch data
         disclosed 2,926 of the dispatches (43 percent) were destined for the
         New Jersey BMC which did not have scanning equipment or a formal
         receiving process, as noted above. We estimated a revenue loss of
         $1.7 million associated with the identified unrecorded dispatches.

Missing Dispatch Records Were Not Identified and Billed

Between CYs 2008 and 2010, the Postal Service did not always identify missing
inbound international dispatch records. This occurred because the process to identify
and record missing dispatch records is primarily manual and managers lacked formal
oversight mechanisms and system reports that would aid in detection. Postal Service
International Air Mail Record Unit clerks identified 8,165 missing dispatches by
reviewing for breaks in sequentially numbered dispatches and created estimates in GBS
to process records for billing.

However, we identified an additional 24,592 missing dispatch records between
CYs 2008 and 2010 that Postal Service personnel could have identified through a more
complete review of breaks in sequentially numbered dispatch series. As a result, the
Postal Service did not bill and receive revenue for these dispatches, totaling



                                             3
Inbound International Parcel Mail                                              MS-AR-12-001



$6.8 million. During the course of the audit, the Postal Service developed management
reporting capabilities in the Enterprise Data Warehouse to list broken sequences in
dispatch serial numbers to identify missing dispatch records. Therefore, we are not
including a recommendation to develop this report. However, we are including a
recommendation to require periodic management review of these reports.

Dispatch Receipts Were Not Processed for Billing

The Postal Service did not always process dispatch receipts from the GBS to the
appropriate billing system. After dispatch record receipts are entered into GBS, GBS
automatically validates dispatch receipts for accuracy and completeness. International
Air Mail Record Unit personnel are required to reconcile and correct any dispatch
records that fail GBS validation. Without GBS validation or reconciliation from an
International Air Mail Record Unit, dispatch records cannot be transmitted to the Foreign
Post Settlement System for billing. As a result, the Postal Service cannot create a bill to
collect revenue due from the FPAs.

The Postal Service did not process 19,128 of 308,589 parcel dispatches (6 percent)
recorded in GBS to the appropriate billing system from CYs 2008 through 2010. The
International Accounting Branch Settlement System was used to process bills prior to
2010. The Postal Service experienced significant interface issues between GBS and the
prior billing system. The Foreign Post Settlement (FPS) System replaced the
International Accounting Branch Settlement System for bill processing in 2010. We
attribute the cause for the incomplete billing records in CYs 2008 and 2009 to these
prior billing system interface issues with GBS and the lack of an automated validation
process. The Postal Service significantly improved the completeness of its billing
records by automating the validation process and establishing the new billing system.
Although the number of unprocessed dispatch records substantially declined in 2010
with the new system, International Air Mail Record Units still did not reconcile, and
correct 1,214 dispatch records that failed validation in GBS. Invalid dispatch records
must be corrected prior to submission to the FPS System. Consequently, the dispatch
records were not transmitted to the FPS System for billing. From CYs 2008 to 2010, this
issue resulted in lost revenue totaling $2.4 million for inbound international parcel mail.
See Table 1.

                           Table 1.Dispatch Receipts Not Billed
       Dispatch            Total           Total       Percent           Total
         Year           Dispatches      Dispatches     Variance        Extended
                         Recorded      Recorded but                    Dispatch
                                         Not Billed                      Price
         2008              110,555         12,484           11.3%      $1,717,974
         2009              100,741         5,430            5.4%          454,129
         2010              97,293          1,214            1.2%          248,764
         Total:            308,589         19,128                      $2,420,867




                                             4
Inbound International Parcel Mail                                                                        MS-AR-12-001



Management has reviewed many of the unprocessed dispatch records identified during
the audit and is currently examining the edit criteria in GBS and the FPS System to
assess the need for system enhancements or whether dispatch records with erroneous
data will need to be modified in order to pass and be accounted for properly in the FPS
System.

Recommendations

We recommend the vice president and managing director, Global Business:

1. Reissue procedures to ensure all receipts of inbound international mail are recorded
   into the Global Business System (GBS) and require International Air Mail Records
   Units to follow-up with identification, correction, and billing of missing dispatch
   records.

2. Develop system-generated management reports in the GBS to:

        Compare electronic dispatch records provided by foreign postal administrations
         to dispatch receipts recorded by International Service Centers to monitor the
         effectiveness of Receiving Units.

        Develop system-generated management aging reports in the Global Business to
         monitor and ensure all records are processed to the appropriate billing system.

3. Update standard operating procedures to require periodic management review of the
   new reporting capabilities in the Enterprise Data Warehouse to identify broken
   sequences in dispatch records and ensure estimates are created for submission to
   the appropriate Foreign Postal Administration for billing.

4. Create and process records for dispatches identified during the audit that have not
   expired 5 so that supplemental bills can be created to collect revenue due from the
   appropriate foreign postal administrations.

We recommend the vice president and managing director, Global Business, in
coordination with the vice president, Controller:

5. Assess the need for inbound international mail scanning and recording capabilities
   at the New Jersey Bulk Mail Center.




5
 Parcels are generally billed monthly and quarterly and the settlement timeline for expiration of the receivable varies.
The amount of time the Postal Service has to settle before expiration of the receivable varies depending on the
specific agreement established with the each FPA.


                                                           5
Inbound International Parcel Mail                                             MS-AR-12-001



Management’s Comments

Management agreed with our findings and recommendations but did not agree with the
monetary impact reported. Specifically, management recognized past difficulties with
the capture and processing of international inbound parcels and reiterated that they are
addressing some of these issues or will be addressing them through planned actions.
These actions and their target implementation dates include:

       Simplified standard operating procedures for International Air Mail Records Units
        (IAMRU) by January 31, 2012.

       Review of the interface between IAMRU and International Service Center
        operations for improved management reporting of unusual dispatches and
        receipts activity by September 30, 2012.

       Analysis of unprocessed records identified during the audit by December 15,
        2011.

       Analysis of the need to install inbound mail scanning equipment at the New
        Jersey Network Distribution Center by April 30, 2012.

Although management agreed that savings and reduced revenue risk will result if they
implement the recommended actions in the report, they disagreed with our
quantification and projected monetary impact and provided additional analyses
subsequent to the issuance of the draft report. See Appendix C for management’s
comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report.

Regarding disagreement with the monetary impact, management provided additional
analyses which showed that 4,168 of the 8,775 gaps in the sequential dispatch serial
numbers should potentially not be billed. Management’s methodology assumes all
“missing” dispatch numbers within the series as “Nil” records, which would not require
billing to a foreign post. Since the dispatch records are ”missing” we are unable to
quantify how many would in fact be “Nil.” To be conservative in our estimated savings,
we have excluded all the questioned dispatch records from our analysis and adjusted
our monetary impact accordingly.

Management also questioned the identification of missing dispatches that contain CN 6
and CV 7 subclasses. However, prior to issuing the draft report, we acknowledged FPAs’

6
    Ordinary Parcels
7
    Insured Parcels


                                             6
Inbound International Parcel Mail                                         MS-AR-12-001



interchangeable use of the CN and CV subclasses in a dispatch series and modified the
data used in our analysis to reflect these subclasses as one series. Accordingly, no
adjustment is necessary as we already accounted for this issue in our calculations.
Management further provided research results of the 1,214 dispatch records that were
not processed to the FPS. Management identified the reasons for 67 percent of the
dispatches that were not processed, however, they did not provide evidence that the
dispatch records were corrected and processed for billing to FPAs. Therefore, we did
not reduce the monetary impact reported for this issue.




                                          7
Inbound International Parcel Mail                                                                    MS-AR-12-001




                                 Appendix A: Additional Information

Background

Inbound international mail 8 is foreign-originating mail destined for delivery within the
U.S. In FY 2010, the Postal Service reported $352 million in revenue for inbound
international mail processed and delivered in the U.S. The Postal Service’s Global
Business office is responsible for overseeing the identification, recording, and billing of
inbound international mail. 9 Postal Service employees at IEOs and ISCs 10 process,
manage, and reconcile international mail entering the U.S. via its web-based
application, GBS.

Foreign posts send advance dispatch notifications prior to sending inbound international
mail dispatches. Foreign posts send the advance notification about the dispatches to
the receiving country through the Electronic Data Interchange. 11 Foreign mail
dispatches are receptacles 12 with an attached label from the country of origin that may
contain single or multiple mailpieces.

Receiving units within the ISCs are responsible for recording receipt of inbound
international mail using GBS. Employees at receiving units scan or manually enter into
GBS the 29-character Universal Postal Union barcode on every receptacle. The GBS
then assesses all of the dispatch records based on a set of validation rules and assigns
a validation status – pass or fail – to each record. There are two types of automated
validations GBS performs:

    1. Automated validation, which verifies the completeness and validity of the
       dispatch records.

    2. Verifies that advance electronic records provided by the foreign postal
       administration match the data receiving unit clerks enter into GBS.

To complete the validation process, International Air Mail Receiving Unit clerks must
update GBS with the most reliable data source in accordance with Postal Service
procedures and within established timelines. If data from the different sources are not
consistent, the International Air Mail Receiving Unit clerks must update the record with
the most reliable data source to complete the validation process before transmitting
information to the billing system for settlement. In addition, International Air Mail
Receiving Unit clerks communicate with the FPA when they identify irregularities in the
preparation, dispatch, and receipt of international mail.

8
  Mail can also be a term for a dispatch.
9
  Mail refers to all classes of international mail
10
   There are currently five ISCs: New York, Miami, Chicago, Los Angeles, and San Francisco.
11
   Electronic Data Interchange (EDI) countries send electronic advice data to the Postal Service before mail arrival.
Included are dispatch dates and other information that is pre-populated into the Receipt System. When ISC personnel
scan the EDI receptacles, the scan retrieves the EDI data and associates the receptacle to the EDI dispatch date.
12
   Receptacles can include trays, sacks, or boxes. They may contain one or more mailpieces.


                                                         8
Inbound International Parcel Mail                                                            MS-AR-12-001




Once dispatches clear the validation or reconciliation process, dispatch data is
transmitted from GBS to the billing system. The Postal Service’s current billing system,
the Foreign Post Settlement System, replaced the International Accounting Branch
Settlement System in December 2009. With information in the Foreign Postal
Settlement System, employees at the St. Louis Accounting Service Center price
dispatch and receptacle data, generate all needed settlement documents, reconcile
receivables and payables with adjustments to the sub-ledgers, and create all the
accounting journal sub-ledgers to post to the corporate general ledger.

Objective, Scope, and Methodology

Our objective was to determine whether the Postal Service identified, recorded, and
billed foreign posts for receipt of inbound international parcel mail. To accomplish our
objective, we reviewed available policies, procedures, and documentation. We
conducted on-site visits to ISCs and the St. Louis Accounting Service Center and
interviewed key officials and subject matter experts on the acceptance and processing
of accepting inbound international mail.

We identified the computer systems the Postal Service used to gather, reconcile, and
process data to collect revenue from inbound international mail. We compared inbound
international mail data scans at receiving units to the electronic data received from the
FPA. Additionally, we analyzed sequentially numbered mail dispatch data to identify
missing records. We also compared the receipt data recorded in the GBS to the billing
records maintained in the Foreign Post Settlement System.

We conducted this performance audit from July 2009 through November 2011 13 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on September 14 and
October 19, 2011, and included their comments where appropriate.

We assessed the reliability of GBS data by comparing scanned and manually entered
data to the electronic data interchange from the FPAs. We also compared receipt data
in GBS with the billing records in Foreign Post Settlement System and the International
Accounting Branch Settlement System. We determined the data were sufficiently
reliable for the purposes of this report.




13
     This audit was suspended for over 1 year due to resource unavailability and data access issues.


                                                      9
      Inbound International Parcel Mail                                                    MS-AR-12-001



     Prior Audit Coverage

                                           Final
                          Report          Report      Monetary
  Report Title            Number           Date        Impact              Report Results
Overweight               MS-MA-11-001     09/13/11        None     The Postal Service accepted and
International                                                      processed overweight inbound
Parcels                                                            international mail items. By
                                                                   allowing overweight items to enter
                                                                   the mail stream, the Postal Service
                                                                   increases the risk of work-related
                                                                   injuries. In addition, a potential for
                                                                   revenue loss exists. Management
                                                                   agreed with our recommendations
                                                                   to issue interim guidance stating
                                                                   procedures for handling overweight
                                                                   and oversize inbound international
                                                                   mail items and update Handbook
                                                                   T-5, International Mail Operations,
                                                                   to include procedures for handling
                                                                   these items.
Fiscal Year 2010        FT-AR-11-009      3/31/11         None     We followed up on prior year
Postal Service                                                     recommendations concerning
Financial                                                          highway extra trips, international
Statements Audit –                                                 mail, and controls over money
St. Louis                                                          orders. As a result of our review,
Information                                                        we closed all recommendations for
Technology and                                                     highway extra trips and
Accounting Service                                                 international mail, but three remain
Center                                                             outstanding for money orders.
                                                                   Because of management’s
                                                                   continuing efforts and
                                                                   improvements, we did not provide
                                                                   any recommendations.
Miami International     FT-AR-08-012      9/03/08     $2,084,620   Data used to bill FPA for inbound
Service Center –                                                   international Express Mail® service
Inbound                                                            was not complete. We determined
International Mail                                                 that 1,058 manually entered
                                                                   dispatches were not billed to FPAs.
                                                                   Management took corrective action
                                                                   during the audit to address the
                                                                   issue.




                                                     10
      Inbound International Parcel Mail                                                    MS-AR-12-001



Controls Over the      CRR-AR-08-006      8/25/08    $859,468 in     In implementing the International
International                                         monetary       Reconciliation System to
Reconciliation                                           (and        streamline the international mail
System                                               $11,726,074     reconciliation process,
                                                       in non-       management did not identify all
                                                      monetary       requirements prior to its
                                                       impact)       deployment, allowing incomplete
                                                                     validated records to be placed into
                                                                     the productions database.
                                                                     Management concurred with our
                                                                     findings and implemented
                                                                     corrective action.
San Francisco           FT-AR-07-012      3/30/07        $922,478   ISC personnel in the record unit did
International                                                       not properly process letter class
Service Center –                                                    inbound international mail
Inbound                                                             documents and timely enter the
International Mail                                                  information into the international
                                                                    web-based application.
                                                                    Management agreed with our
                                                                    recommendation to implement a
                                                                    procedure requiring adequate
                                                                    management oversight to ensure
                                                                    proper processing of inbound
                                                                    international letter class
                                                                    documents.
J.T. Weeker             FT-AR-06-013      3/22/06        $147,729    ISC personnel could not support
(Chicago)                                                            discrepancies or did not request
International                                                        missing documentation from the
Service Center –                                                     foreign post. In addition, there
Inbound                                                              were discrepancies between
International Mail                                                   supporting documentation and
                                                                     billing information because
                                                                     inbound records clerk entered
                                                                     incorrect data. Management
                                                                     agreed with our recommendations
                                                                     to request missing documents and
                                                                     reassigned and trained new
                                                                     personnel. Beginning July 2005,
                                                                     unit supervisors began monitoring
                                                                     input on inbound mail documents
                                                                     to ensure accuracy.
New York                FT-AR-08-005      1/24/08    $13,700,604    Volume data used to bill FPAs for
International                                                       inbound Express Mail service was
Service Center –                                                    not always accurate. We found
Inbound                                                             errors in 97 of 120 items reviewed
International Mail                                                  for China. For all other countries,
                                                                    we found errors in 57 of 78 items
                                                                    reviewed. Management agreed
                                                                    with our recommendation to
                                                                    establish and communicate policies
                                                                    and procedures to address the
                                                                    complete processing and billing
                                                                    cycle for inbound international mail.




                                                    11
Inbound International Parcel Mail                                                                   MS-AR-12-001




                            Appendix B: Monetary and Other Impacts

                                             Monetary Impacts

                                                      Calendar              Calendar               Total
                                                    Year Period           Year Period             Amount
                                                    2009 – 2010           2011 – 2012
     Finding       Impact Category                     Amount               Amount
        1        Revenue Loss 14                     $1,393,617            $2,068,674           $3,462,291
        2        Revenue Loss                         3,550,387              43,307              3,593,694

       3         Revenue Loss                         702,893               497,530               1,200,423
                 Total                               $5,646,897            $2,609,511            $8,256,408

                                                Other Impacts

                Finding                     Impact Category                              Amount
                   1                Revenue at Risk 15                                  $20.4 million
                   1                Revenue at Risk                                      24.3 million
                                    Total                                              $44.7 million




14
   Revenue loss consists of amounts the Postal Service is (or was) entitled to receive but was underpaid or not
realized because policies, procedures, agreements, requirements, or good business practices were lacking or not
followed.
15
   Revenue at risk represents revenue that the Postal Service is at risk of losing.




                                                        12
Inbound International Parcel Mail                              MS-AR-12-001



                           Appendix C: Management’s Comments




                                          13
Inbound International Parcel Mail        MS-AR-12-001




                                    14
Inbound International Parcel Mail        MS-AR-12-001




                                    15
Inbound International Parcel Mail        MS-AR-12-001




                                    16
Inbound International Parcel Mail        MS-AR-12-001




                                    17
Inbound International Parcel Mail        MS-AR-12-001




                                    18
